<html>
<title> - KEEPING AMERICA FIRST: FEDERAL INVESTMENTS IN RESEARCH, SCIENCE, AND TECHNOLOGY AT NSF, NIST, OSTP, AND INTERAGENCY STEM PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







               KEEPING AMERICA FIRST: FEDERAL INVESTMENTS
                       IN RESEARCH, SCIENCE, AND
                     TECHNOLOGY AT NSF, NIST, OSTP,
                     AND INTERAGENCY STEM PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-53

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov


                                  _______

                   U.S. GOVERNMENT PRINTING OFFICE

86-891 PDF                WASHINGTON : 2013
______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001





              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
















                            C O N T E N T S

                           November 13, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    12

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    14
    Written Statement............................................    15

                               Witnesses:

Dr. Richard Buckius, Vice President for Research, Purdue 
  University
    Oral Statement...............................................    17
    Written Statement............................................    19

Dr. Daniel Sarewitz, Co-Director, Consortium for Science, Policy 
  & Outcomes, Professor of Science and Society, Arizona State 
  University
    Oral Statement...............................................    24
    Written Statement............................................    27

Dr. Timothy Killeen, President, The Research Foundation for SUNY, 
  Vice Chancellor for Research, SUNY System Administration
    Oral Statement...............................................    39
    Written Statement............................................    41

Mr. James Brown, Executive Director, STEM Education Coalition
    Oral Statement...............................................    49
    Written Statement............................................    51

Discussion.......................................................    65

             Appendix I: Answers to Post-Hearing Questions

Dr. Richard Buckius, Vice President for Research, Purdue 
  University.....................................................    86

Dr. Daniel Sarewitz, Co-Director, Consortium for Science, Policy 
  & Outcomes, Professor of Science and Society, Arizona State 
  University.....................................................    94

Dr. Timothy Killeen, President, The Research Foundation for SUNY, 
  Vice Chancellor for Research, SUNY System Administration.......    97

Mr. James Brown, Executive Director, STEM Education Coalition....   111

            Appendix II: Additional Material for the Record

Submitted statement of Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology....................   116

Discussion draft.................................................   117

 
        KEEPING AMERICA FIRST: FEDERAL INVESTMENTS IN RESEARCH,
              SCIENCE, AND TECHNOLOGY AT NSF, NIST, OSTP,
                     AND INTERAGENCY STEM PROGRAMS

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                  House of Representatives,
                    Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Bucshon. The Subcommittee on Research and 
Technology will come to order.
    Good morning, everyone. Welcome to today's hearing titled 
``Keeping America First: Federal Investments in Research, 
Science and Technology at NSF, NIST, OSTP and Interagency STEM 
Programs.'' In front of you are packets containing the written 
testimony, biographies, and Truth in Testimony disclosures for 
today's witnesses. I will now recognize myself for five minutes 
for an opening statement.
    I am pleased to call to order this morning's hearing to 
examine the fundamental science and research activities at NSF, 
the National Institutes for Standards and Technology, known as 
NIST, and the Office of Science and Technology Policy, OSTP. We 
have circulated a discussion draft, and I want to emphasize, it 
is a discussion draft, of legislation that would reauthorize 
basic science research and education programs at NSF, NIST and 
OSTP, and strengthen coordination of science, technology, 
engineering and mathematics--STEM--education programs across 
the Federal Government.
    I am pleased the majority and minority staff had an 
opportunity to review the discussion draft carefully and 
identify areas of agreement. We have asked NSF, NIST and OSTP 
as well as other stakeholders in the university and business 
communities for their comments about the discussion draft. We 
look forward to a thoughtful and productive dialogue.
    Scientific research is essential fuel for America's engine 
of innovation. Research-driven innovation is critical for 
American businesses to remain competitive and world-class in a 
global marketplace. Additionally, educating our children in the 
STEM fields is crucial to their futures and to the future of 
our Nation.
    NSF spends nearly $7 billion of taxpayers' money every 
year. Congress has a responsibility to work with leaders at the 
NSF and the National Science Board to ensure that these 
taxpayer dollars focus on high-priority research.
    The FIRST Act discussion draft affirms our commitment to 
high-integrity science and transparency of research results. 
The proposed legislation improves transparency of taxpayer-
funded research by making more information available to the 
public about awarded grants and how they promote the national 
interest. Furthermore, it is consistent with steps the NSF is 
already considering to improve accountability, which have been 
approved by the National Science Board.
    As it relates to STEM education, if leading the world in 
the high-tech sector and achieving the innovations of tomorrow 
are an imperative goal of the United States, American students 
and America's education system must excel in the STEM fields.
    Unfortunately, America lags behind many other nations when 
it comes to STEM education. American students rank 23rd in 
science and 31st in math. We must improve these numbers 
substantially if we expect to remain a world leader. We must 
engage our Nation's youth to study science and engineering so 
they will want to pursue these careers. Private and nonprofit 
stakeholders are also working to engage students in STEM 
subjects. Understanding and leveraging these resources is an 
important aspect of strengthening Federal support for STEM 
education. The FIRST Act discussion draft improves coordination 
for Federal STEM programs and recognizes the importance of 
industry investment in outcome-oriented STEM education efforts.
    Another key part of this discussion draft is the 
``Technology and Research Accelerating National Security and 
Future Economic Resiliency Act''--I did get that out--or 
TRANSFER Act, of which I am a cosponsor, and which has been 
endorsed by a long list of business and nonprofit 
organizations. The research and development conducted at our 
nation's universities, research institutes and national 
laboratories have served as the basis for many technology 
breakthroughs that have driven American innovation and our 
economic growth. In order to bolster American economic 
competitiveness, the TRANSFER Act will improve technology 
transfer and accelerate commercialization of federally funded 
research and development at our Nation's research universities 
and laboratories, in part, by encouraging stronger R&D 
partnerships among universities, national laboratories and 
businesses.
    Basic research funded through our Nation's science agencies 
has provided the basis for many of the technology breakthroughs 
that have kept America and our universities at the scientific 
forefront. They have also helped create new industries, 
innovations and jobs that have boosted our economy and 
strengthened our economic competitiveness.
    As our country continues to face a fiscal crisis, part of 
our challenge is how to achieve the most benefit from our 
limited resources both now and in the years ahead. We recognize 
that returns on these long-term investments, including 
expanding STEM education, may take many years to be realized 
fully.
    As we all anxiously await the results of the work done by 
our colleagues who are taking part in the budget conference 
negotiations, we also recognize that in a time of tight budgets 
in Washington, it is even more important to preserve as much 
stability in Federal funding as possible.
    I want to reiterate what we are reviewing is a discussion 
draft, not final legislation, and on both sides of the aisle, 
the staff and the Members are working together to come up with 
a final piece of legislation that will benefit our country.
    I look forward to hearing from our distinguished witnesses 
and having a productive discussion.
    [The prepared statement of Mr. Bucshon follows:]

Prepared Statement of Subcommittee on Research and Technology Chairman 
                             Larry Bucshon

    I am pleased to call to order this morning's hearing to examine the 
fundamental science and research activities at the National Science 
Foundation, known as the NSF, National Institutes for Standards and 
Technology, known as NIST, and the Office of Science and Technology 
Policy, OSTP.
    We have circulated a discussion draft of legislation that would 
reauthorize basic research and education programs at NSF, NIST, and 
OSTP, and strengthen coordination of Science, Technology, Engineering, 
and Mathematics (STEM) education programs across the federal 
government.
    I am pleased the majority and minority staff had an opportunity to 
review the discussion draft carefully and identify areas of agreement. 
We have asked NSF, NIST, and OSTP, as well as other stakeholders in the 
university and business communities for their comments about the 
discussion draft. We look forward to a thoughtful and productive 
dialogue.
    Scientific research is essential fuel for America's engine of 
innovation. Research-driven innovation is critical for American 
businesses to remain competitive and world-class in a global 
marketplace. Additionally, educating our children in the STEM fields is 
crucial to their futures and our nation's.
    NSF spends nearly $7 billion of taxpayers' money every year. 
Congress has a responsibility to work with leaders at the NSF and the 
National Science Board to ensure that these taxpayer dollars focus on 
high priority research.
    The FIRST Act discussion draft affirms our commitment to high-
integrity science and transparency of research results. The proposed 
legislation improves transparency of taxpayer-funded research by making 
more information available to the public about awarded grants and how 
they promote the national interest. Furthermore, it is consistent with 
steps the NSF is already considering to improve accountability, which 
have been approved by the National Science Board.
    As it relates to STEM education, if leading the world in the high-
tech sector and achieving the innovations of tomorrow are an imperative 
goal of the US, American students and America's education system must 
excel in the STEM fields.
    Unfortunately, America lags behind many other nations when it comes 
to STEM education. American students rank 23rd in science and 31st in 
math. We must improve these numbers substantially if we expect to 
remain a world leader. We must engage our nation's youth to study 
science and engineering so they will want to pursue these careers.
    Private and nonprofit stakeholders are also working to engage 
students in STEM subjects. Understanding and leveraging those resources 
is an important aspect of strengthening federal support for STEM 
education. The FIRST Act discussion draft improves coordination for 
federal STEM programs and recognizes the importance of industry 
investment in outcome-oriented STEM education efforts.
    Another key part of this discussion draft is the ``Technology and 
Research Accelerating National Security and Future Economic Resiliency 
Act,'' or TRANSFER Act, of which I am a cosponsor, and which has been 
endorsed by a long list of business and non-profit organizations.
    The research and development conducted at our nation's 
universities, research institutes, and national laboratories have 
served as the basis for many technology breakthroughs that have driven 
American innovation and our economic growth.
    In order to bolster American economic competitiveness, the TRANSFER 
Act will improve technology transfer and accelerate commercialization 
of federally funded research and development at our nation's research 
universities and laboratories--in part, by encouraging stronger R&D 
partnerships among universities, national laboratories, and businesses.
    Basic research funded through our nation's science agencies has 
provided the basis for many of the technology breakthroughs that have 
kept America and our universities at the scientific forefront.
    They have also helped create new industries, innovations, and jobs 
that have boosted our economy and strengthened our economic 
competitiveness.
    As our country continues to face a fiscal crisis, part of our 
challenge is how to achieve the most benefit from our limited 
resources--both now and in the years ahead.
    We recognize that returns on these long-term investments, including 
expanding STEM education, may take many years to be realized fully.
    Also, as we all anxiously await the results of the work done by our 
colleagues who are taking part in the budget conference negotiations, 
we also recognize that in a time of tight budgets in Washington, it's 
even more important to preserve as much stability in federal funding as 
possible.
    I want to reiterate what we are reviewing is a discussion draft, 
not final legislation. I look forward to hearing from out distinguished 
witnesses and having a productive discussion.

    Chairman Bucshon. At this point I now recognize the Ranking 
Member, the gentleman from Illinois, Mr. Lipinski, for an 
opening statement.
    Mr. Lipinski. Thank you, Chairman Bucshon, for holding 
today's hearing on the discussion draft of the FIRST Act, and I 
want to welcome our witnesses here today.
    We have all seen the headlines about how our competitors 
are pouring resources into research and development. They may 
not be ahead of us now in total investment, but China and 
others are already far outpacing us in R&D growth. As we all 
know, these are long-term investments, and failing to 
adequately invest now will catch up with us when we see slower 
job growth from less innovation.
    In my district last week, Argonne National Lab announced 
that due to sequestration and future budget uncertainty, they 
would be forced to let go 120 of their staff. Although Argonne 
is funded primarily by the Department of Energy rather than NSF 
or NIST, this serves as a reminder of what will happen if we 
continue to let science funding stagnate across the Federal 
Government. If this trend continues, the long term effects on 
our scientific competitiveness will be catastrophic. Agencies 
and universities won't be able to plan, some of the best and 
brightest will give up and leave their labs, and the younger 
generation will see what their mentors are up against and 
decide against a career as a researcher altogether. A witness 
before this Committee recently said that if he were a young 
scientist in a foreign country he doesn't think he would decide 
to come to America to study and stay to do research, as he had 
done early in his career, and this is something that we have to 
be concerned about.
    I understand very well that America faces a serious debt 
threat and that we need to make some tough decisions, but 
almost all of these are well outside the purview of this 
Committee or the scope of today's hearing. The Chairman's 
intent is to hold off on including authorization levels until 
we have a budget deal. I hope that we can use the time before 
the budget deadline to more fully discuss some of the policy 
proposals contained in the draft, and I also hope this does not 
mean that we intend to let budget negotiators dictate to this 
committee what the appropriate levels of funding are for 
Federal science agencies. We are an authorizing committee, and 
as an authorizing committee, I always hate to see the 
appropriators be able to call all the shots, and I think it is 
important for us here to have a discussion on authorization 
levels that reflect a smart and balanced approach to making 
sure we remain strong and competitive in science, technology 
and innovation. I look forward to working with the Chairman and 
all of my colleagues to do that.
    Before we hear from the witnesses, let me just comment on a 
few of the priorities I have for this legislation. First, 
manufacturing plays a significant role in our economic and 
national security. We must reinvigorate and expand America's 
manufacturing base, and we cannot do that with the technologies 
and processes of yesterday. The small and medium-sized 
industries that comprise a significant portion of our 
manufacturing capacity don't have the resources or capacity to 
invest in the most far-reaching R&D with potential application 
to the manufacturing technologies and processes of the future. 
NIST and NSF play a critical role in funding such research, and 
we should take the opportunity of moving legislation to 
reinforce and expand our efforts to revitalize American 
manufacturing.
    Next, NSF is responsible for supporting research across all 
scientific disciplines, from the physical and life sciences, to 
engineering, to the social, economic and behavioral sciences. I 
know that some of my colleagues question the value of research 
in the social and behavioral sciences, but there is ample 
evidence that this research is just as important as any NSF 
conducts, and the budget for the entire social, behavioral, and 
economic science directorate amounts to just over three percent 
of all of NSF's budget. Social and behavioral sciences have 
played a critical role in strengthening our response to 
disasters, improving public health, strengthening our legal 
system, and optimizing the use of Federal resources. I believe 
any reauthorization of NSF should provide sustainable funding 
to all scientific disciplines and not impose any unique 
restrictions or conditions on any specific type of research.
    I would also like to see inclusion of language to formally 
establish NSF's I-Corps program. Results from the first couple 
of years of this program support my belief that I-Corps will 
yield exponential benefits, helping turn NSF's research 
investments into new companies and jobs across the country. In 
fact, it is important that we work together across the Federal 
research portfolio to lower the barriers for the 
commercialization of federally funded research. Supporting the 
creation of public-private partnerships, reducing the risk for 
capital investment, and eliminating obstacles to technology 
transfer will help us get a larger return on our investment in 
science not only in economic terms, but in benefits for all 
Americans.
    I am going to close with just a couple of thoughts about 
the draft bill. I have concerns with language in the bill that 
would make changes to the way that NSF conducts merit review of 
research proposals. While some of my colleagues may believe 
that these provisions merely increase accountability and 
transparency in the use of Federal resources, which certainly 
we all agree we want to do, I fear that the criteria used in 
the bill are vague and the process is unnecessarily burdensome. 
At best, this language may add a good deal of uncertainty as to 
how research grants would be awarded; at worst I fear it could 
fundamentally alter how merit review is done at an agency that 
is viewed as a gold standard by the rest of the world. As I 
said, I am certainly not opposed to increasing accountability 
and transparency, and I welcome rigorous oversight of NSF 
programs, and we have an obligation to do that, but I believe 
we need to think through these concerns and possible solutions 
more carefully, and I hope we will have the opportunity to do 
so not just today, but in additional hearings on this bill. I 
think we are going to have some questions on that for the 
witnesses. I look forward to hearing from them on this and 
other issues. I want to thank the Chairman, and I yield back 
the balance of my time.
    [The prepared statement of Mr. Lipinski follows:]

     Prepared Statement of Subcommittee on Research and Technology
                Ranking Minority Member Daniel Lipinski

    Thank you, Chairman Bucshon for holding today's hearing on the 
discussion draft of the FIRST Act, and welcome to our witnesses.
    We have all seen the headlines about how our competitors are 
pouring resources into R&D. They may not be ahead of us now in total 
investment, but China and others are already far outpacing us in R&D 
growth. As we all know, these are long-term investments, and failing to 
adequately invest now will catch up with us when we see slower job 
growth.
    In my district last week, Argonne National Laboratory announced 
that due to sequestration and future budget uncertainty they would be 
forced to let 120 of their staff go. Although Argonne is funded 
primarily by the Department of Energy rather than NSF or NIST, this 
serves as a reminder of what will happen if we continue to let science 
funding stagnate across the Federal Government. If this trend 
continues, the long term effects on our scientific competitiveness will 
be catastrophic. Agencies and universities won't be able to plan, some 
of the best and brightest will give up and leave their labs, and the 
younger generation will see what their mentors are up against and 
decide against a career as a researcher altogether. A witness before 
this committee recently said that if he were a young scientist today in 
a foreign country he doesn't think he'd decide to come to America to 
study and stay to do research, as he had done early in his career.
    I understand very well that America faces a serious debt threat and 
that we need to make some tough decisions; but almost all of these are 
well outside the purview of this Committee or the scope of today's 
hearing. The Chairman's intent is to hold off on including 
authorization levels until we have a budget deal. I hope that we can 
use the time before the budget deadline to more fully discuss some of 
the policy proposals contained in the draft, and I also hope this does 
not mean that we intend to let budget negotiators dictate to this 
committee what the appropriate levels of funding are for federal 
science agencies. Since we are an authorizing committee, we should be 
leading the discussion about authorization levels that reflect a smart 
and balanced approach to making sure we remain strong and competitive 
in science, technology, and innovation. I look forward to working with 
the Chairman and all of my colleagues to that end.
    Before we hear from the witnesses, let me just comment on a few of 
the priorities I have for this legislation. First, manufacturing plays 
a significant role in our economic and national security. We must 
reinvigorate and expand America's manufacturing base, and we cannot do 
that with the technologies and processes of yesterday. The small and 
medium-sized industries that comprise a significant portion of our 
manufacturing capacity don't have the resources or capacity to invest 
in the most far-reaching R&D with potential application to the 
manufacturing technologies and processes of the future. NIST and NSF 
play a critical role in funding such research and we should take the 
opportunity of moving legislation to reinforce and expand our efforts 
to revitalize American manufacturing.
    Next, NSF is responsible for supporting research across all 
scientific disciplines, from the physical and life sciences, to 
engineering, to the social, economic, and behavioral sciences. I know 
that some of my colleagues question the value of research in the social 
and behavioral sciences, but there is ample evidence that this research 
is just as important as any NSF conducts, and the budget for the entire 
social, behavioral, and economic science directorate amounts to just 
over three percent of all of NSF's budget. Social and behavioral 
sciences have played a critical role in strengthening our response to 
disasters, improving public health, strengthening our legal system, and 
optimizing the use of federal resources. I believe any reauthorization 
of NSF should provide sustainable funding to all scientific disciplines 
and not impose any unique restrictions or conditions on any specific 
type of research.
    I would also like to see inclusion of language to formally 
establish NSF's I-Corps program. Results from the first couple of years 
of this program support my belief that I-Corps will yield exponential 
benefits, helping turn NSF's research investments into new companies 
and jobs across the country. In fact, it is important that we work 
together across the federal research portfolio to lower the barriers 
for the commercialization of federally funded research. Supporting the 
creation of public-private partnerships, reducing the risk for capital 
investment, and eliminating obstacles to technology transfer will help 
us get a larger return on our investment in science not only in 
economic terms, but for the benefit of all Americans.
    I will close with just a couple of thoughts about the draft bill 
under consideration today. I have concerns with language in the bill 
that would make changes to the way that NSF conducts merit review of 
research proposals. While some of my colleagues may believe that these 
provisions merely increase accountability and transparency in the use 
of federal resources, I fear that the criteria used in the bill are 
vague and that the process is unnecessarily burdensome. At best this 
language may add a good deal of uncertainty as to how research grants 
would be awarded, at worst I fear it could fundamentally alter how 
merit review is done at an agency that is viewed as a gold standard by 
the rest of the world. I am not opposed to increasing accountability 
and transparency. I welcome rigorous oversight of NSF programs. But I 
believe we need to think through these concerns and possible solutions 
more carefully and I hope we will have the opportunity to do so not 
just today, but in additional hearings on this bill.
    Thank you, Mr. Chairman and with that I yield back the balance of 
my time.

    Chairman Bucshon. Thank you.
    At this time I am going to recognize the Ranking Member of 
the full Committee, Ms. Johnson, for her statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and let me 
say thank you to our witnesses for being here this morning.
    The Science Committee, perhaps more than any other 
committee, is where we lay the groundwork for long-term 
economic growth and prosperity. It is here where we make the 
decision to continue or to cede the U.S. leadership in science 
and technology. It is here where we make the decision to plant 
the seeds for the fruits of U.S. science to grow into new 
companies and jobs, improved health, strengthened national 
security, and improved quality of life for all Americans.
    The 2005 Rising Above the Gathering Storm report was a call 
to action that brought us all together in this common cause, 
Democrat and Republican, Congress and the Administration. In 
2007, Congress enacted the America COMPETES Act with an 
overwhelmingly bipartisan majority. That bill set three of our 
agencies, NSF, NIST and DOE's Office of Science, on a doubling 
path and it created the very successful ARPA-E. Unfortunately, 
as we all know, the vision of COMPETES was not fully realized. 
Across-the-board cuts magnified by all of the budget 
uncertainty over the last few years are causing deep and in 
some cases irreparable harm to our leadership in S&T.
    Last week, Republican Senator Lamar Alexander, one of the 
champions of the original COMPETES Act, testified before his 
colleagues during a hearing on reauthorization of the Competes 
Act. He said there are plenty of things that we do that are 
less important than this, if we want to keep a high standard of 
living. Senator Alexander went on to urge his colleagues to 
authorize what our goals should be. I can't agree more.
    This is not the time to be timid. This is the time to send 
a clear message to the appropriators of our priorities as 
authorizers.
    While all of the feuding about the budget goes on around 
us, the Science Committee is one place where we should be able 
to agree more than we disagree. We did so successfully for many 
years, even during divided government, and it is my hope that 
we can do so again. I have been troubled by occasions over the 
past year where that spirit of bipartisanship has broken down, 
and where science has at times seemed to be under siege. We 
need to get back to the approach to legislating that has served 
this Committee well for many years, and certainly the 21 years 
that I have been on it.
    Unfortunately, the draft legislation before us today leaves 
me puzzled. For one thing, it appears to cede our 
responsibility as authorizers to the appropriations committee 
by leaving out the funding levels that we think are necessary 
to carry out the provisions of the bill. Perhaps more 
concerning are the policy directions in this bill. There are 
some provisions on which we can agree. However, it troubles me 
that this draft seems to be dominated in both tone and volume 
by everything that some of my colleagues believe that NSF and 
scientists are doing wrong, and contains very little in the way 
of a vision for the future. I am also confused why the draft 
strikes two sections of existing law establishing broadening 
participation as an important part of NSF's mission when the 
changing demographics of this country should make efforts to 
broaden participation in STEM. That is really a no-brainer. I 
worry that this discussion draft reflects a lack of imagination 
that will not help this Nation meet the competitive challenge 
we face.
    A few weeks ago I circulated a comprehensive COMPETES 
reauthorization draft bill that I hope captures the COMPETES 
principles laid out earlier this year by the scientific 
community. I am in the process of gathering feedback and more 
ideas from stakeholders and Democratic Members, and I welcome 
the witnesses' thoughts on my discussion draft. As we move 
forward, I would be very happy to work with the Chairman and 
with all of my colleagues on both sides of the aisle as I have 
always done to craft a bipartisan bill that truly sets a vision 
for continued U.S. leadership in science and technology.
    Thank you again, Mr. Chairman, and thanks to all the 
witnesses for being here. I yield back.
    [The prepared statement of Ms. Johnson follows:]

          Prepared Statement of Full Committee Ranking Member
                         Eddie Bernice Johnson

    Thank you, Mr. Chairman and thank you to our witnesses for being 
here this morning.
    The Science Committee, perhaps more than any other Committee, is 
where we lay the groundwork for long-term economic growth and 
prosperity. It is here where we make the decision to continue, or to 
cede U.S. leadership in science and technology. It is here where we 
make the decision to plant the seeds for the fruits of U.S. science to 
grow into new companies and jobs, improved health, strengthened 
national security, and improved quality of life for all Americans.
    The 2005 Rising Above the Gathering Storm report was a call to 
action that brought us all together in this common cause, Democrat and 
Republican, Congress and the Administration. In 2007 Congress enacted 
the America Competes Act with an overwhelmingly bipartisan majority. 
That bill set three of our agencies, NSF, NIST, and DOE's Office of 
Science, on a doubling path and it created the very successful ARPA-E. 
Unfortunately, as we all know, the vision of Competes was not fully 
realized. Across the board cuts magnified by all of the budget 
uncertainty over the last few years are causing deep and in some cases 
irreparable harm to our leadership in S&T.
    Last week, Republican Senator Lamar Alexander, one of the champions 
of the original Competes Act, testified before his colleagues during a 
hearing on reauthorization of the Competes Act. He said ``there are 
plenty of things that we do that are less important than this, if we 
want to keep a high standard of living.'' Senator Alexander went on to 
urge his colleagues ``to authorize what our goals should be.'' I 
couldn't agree more. This is not the time to be timid. This is the time 
to send a clear message to the appropriators of our priorities as 
authorizers.
    While all of the feuding about the budget goes on around us, the 
Science Committee is one place where we should be able to agree more 
than we disagree. We did so successfully for many years, even during 
divided government, and it is my hope that we can do so again. I have 
been troubled by occasions over the past year where that spirit of 
bipartisanship has broken down, and where science has at times seemed 
to be under siege. We need to get back to the approach to legislating 
that has served this Committee well for many years.
    Unfortunately, the draft legislation before us today leaves me 
puzzled. For one thing, it appears to cede our responsibility as 
authorizers to the appropriations committee by leaving out the funding 
levels that we think are necessary to carry out the provisions of the 
bill. Perhaps more concerning are the policy directions in this bill. 
There are some provisions on which we can agree. However, it troubles 
me that this draft seems to be dominated in both tone and volume by 
everything that some of my colleagues believe NSF and scientists are 
doing wrong, and contains very little in the way of a vision for the 
future. I am also confused why the draft strikes two sections of 
existing law establishing broadening participation as an important part 
of NSF's mission when the changing demographics of this country should 
make efforts to broaden participation in STEM a no-brainer. I worry 
that this discussion draft reflects a lack of imagination that will not 
help this nation meet the competitive challenge we face.
    A few weeks ago I circulated a comprehensive Competes 
Reauthorization draft bill that I hope captures the Competes principles 
laid out earlier this year by the scientific community. I am in the 
process of gathering feedback and more ideas from stakeholders and 
Democratic Members and I welcome the witnesses' thoughts on my 
discussion draft. As we move forward, I would be very happy to work 
with the Chairman and with all of my colleagues on both sides of the 
aisle to craft a bipartisan bill that truly sets a vision for continued 
U.S. leadership in science and technology.
    Thank you again to the witnesses for being here this morning and I 
look forward to your testimony.

    Chairman Bucshon. Thank you, Ms. Johnson, and thank you for 
your comments, and I will remind everyone again, it is a 
discussion draft, and obviously we want to work with everyone 
on amendments and changes that will make it a true bipartisan 
approach.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I am going to introduce our witnesses.
    Our first witness today is Professor Richard Buckius of 
Purdue University. Dr. Buckius is currently the Vice President 
for Research and Professor of Mechanical Engineering. 
Previously, he was a faculty member at the University of 
Illinois at Urbana-Champaign, my alma mater, and Dr. Buckius 
also served as the National Science Foundation's Assistant 
Director for Engineering. Dr. Buckius received his bachelor's 
and master's degrees and Ph.D. in mechanical engineering at the 
University of California at Berkeley.
    Our second witness is Professor Daniel Sarewitz of Arizona 
State University. He currently is a Professor of Science and 
Society, and the Co-Director and Co-Founder of the Consortium 
for Science, Policy and Outcomes at Arizona State University. 
Dr. Sarewitz is the editor of the magazine Issues in Science 
and Technology, and is also a regular columnist for the journal 
Nature. He received his Ph.D. in geological sciences from 
Cornell.
    Our third witness is Professor Tim Killeen. In June 2012, 
Dr. Killeen was appointed President of the Research Foundation 
for the state of New York, and State University of New York 
Vice Chancellor for Research. Dr. Killeen previously served as 
the National Science Foundation's Assistant Director for 
Geosciences. He also served as the Director of the National 
Center for Atmospheric Research. Dr. Killeen completed his 
undergraduate and graduate education at the University College-
London, earning his Ph.D. in atomic and molecular physics.
    And our final witness today is Mr. James Brown. Mr. Brown 
is the Executive Director of the STEM Education Coalition, an 
alliance of more than 500 businesses, professional and 
education organizations that works to raise awareness about the 
critical role of STEM education. Prior to joining the 
coalition, he was Assistant Director for Advocacy at the 
American Chemical Society. Mr. Brown received his B.S. from the 
University of New Mexico and an M.S. from Penn State, both in 
nuclear engineering. He also holds an MBA from George 
Washington University.
    I would like to thank all of our witnesses for being here 
this morning, and as our witnesses should know, spoken 
testimony is limited to five minutes, after which the Members 
of the Committee will have five minutes each to ask questions.
    I now recognize Dr. Buckius for five minutes to present his 
testimony. Thank you.

TESTIMONY OF DR. RICHARD BUCKIUS, VICE PRESIDENT FOR RESEARCH, 
                       PURDUE UNIVERSITY

    Dr. Buckius. Thank you, Chairman Bucshon, Ranking Member 
Lipinski and the honorable Members of the Committee. I am here 
to discuss the discussion draft of FIRST. Thank you for the 
introduction. You saved me some time. I don't have to go 
through my background.
    I just want to add, though, that I was 30 years at UIUC, 
Illinois, and served as a Department Head, and Associate Vice 
Chancellor for Research. During that time, I was fortunate 
enough to serve at NSF in almost all the capacities. I was a 
Division Program Director initially, then later came back and 
served as a Division Director, and then as the AD, the 
Assistant Director for Engineering. Now at Purdue, we overlook 
almost all of the research activities that go on at Purdue 
University.
    Two comments that might be important. The service that I 
provided to NSF was granted on an Intergovernmental Personnel 
Act leave from Illinois, which is the subject of some of the 
discussion in this particular discussion draft, and at NSF, in 
engineering, engineering at NSF oversees the SBIR/STTR program, 
and so that might be important.
    I would really only want to share a few comments, and then 
I am looking forward to questions. First thing was regarding 
fiscal reality and basic research. As noted in the original Act 
in 1950, fundamental basic research continues to provide 
tremendous impact, and we need to make sure that that occurs in 
the future. Some outcomes of basic research can be anticipated, 
some might be obvious to others, yet many of the discoveries 
and innovations are entirely unexpected. NSF takes a very long 
view for supporting efforts that expand knowledge, enhance 
understanding and provide an engine for new technologies. As 
important, Federal research supports and enables the education 
and training of the next generation of innovators.
    It is clear that we are in a period of great financial 
stress in many areas of the Federal Government, and it is 
stressing all of us in our homes around the Nation. The 
projections of the national future debt paint a picture of an 
extremely heavy burden on future generations. With this Act, 
the opportunity exists to meet a great challenge that can both 
fund future discoveries and innovations and prepare our young 
people to participate in the innovation future. Placing 
discretionary research spending in opposition to mandatory 
spending could jeopardize the future discoveries that will 
yield tomorrow's innovations. It could also jeopardize the 
undiscovered talent in our youth who will make those future 
research generations. It is my hope that we can finance future 
innovative research and thereby cultivating this future 
generation of innovators together with balancing and handling 
our looming fiscal debt.
    On the STEM priority, Purdue strongly urges Congress to 
provide a reliable, sustained funding for STEM research and 
education in the context of a responsible budget. We applaud 
the current draft's language to consider the coordination in 
Federal STEM funding yet ensuring each agency's approach. A 
coordinated multidisciplinary approach is that which is taken 
at Purdue. We believe in our STEM students, and all of our 
students need a broad-based education to make a difference in 
the world. A diverse, interdisciplinary approach can only work 
if we remove barriers. We don't duplicate activities but rather 
collaborate across disciplines to enhance the total impact. 
This is very similar to the current approach in this country as 
well as NSF in support of STEM research and education.
    And finally, comments on transparency and impact. We fully 
support the open public access for results of federally funded 
research. It is central to the mission of higher education. For 
decades, Purdue together with others in higher education 
community have promoted open access. The publication delay of 
open public access is a key point, and various sound arguments 
have been provided, yet I think it is important to proceed with 
the implementation of this as soon as possible and with a 
shorter publication delay time. We applaud the open access 
directive and are eager to see it succeed.
    Finally, comments on NSF, and you have heard this from our 
Chair and Ranking Chair. The National Science Foundation relies 
on thousands of experts every day in their expert fields to 
provide knowledgeable evaluations of the proposals. Reviewers 
deliver these detailed evaluations confidentially and without 
compensation. This is a valuable service to the Nation, and it 
needs to be preserved. Consistent with the wording in Section 
104 of this discussion draft related to the awarding of the 
proposals, an affirmation of award quality by the Foundation in 
general should be possible with a slight increase in 
administrative load. Yet the prior publication of awards and 
associated information will severely compromise the process and 
add tremendous burden, administrative burden, to the process.
    In summary, I would like you to consider the intellectual 
discovery debt incurred by foregoing investments in basic 
research together with the looming financial debt. Hopefully we 
can enable a coordinated and distributed approach currently 
proposed for STEM education research, and finally, ensure open 
public access to federally funded research findings while 
protecting the confidential merit review process.
    Thank you very much for letting me provide you some 
insight, and for your leadership on this Act.
    [The prepared statement of Dr. Buckius follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you, Dr. Buckius, for that 
testimony.
    I now recognize Dr. Sarewitz for five minutes to present 
his testimony.

       TESTIMONY OF DANIEL SAREWITZ DR. DANIEL SAREWITZ,

              CO-DIRECTOR, CONSORTIUM FOR SCIENCE,

      POLICY & OUTCOMES, PROFESSOR OF SCIENCE AND SOCIETY,

                    ARIZONA STATE UNIVERSITY

    Dr. Sarewitz. Thank you, Mr. Chairman, Members of the 
Committee.
    I want to begin by bringing to your attention the cover 
story of the October 19th issue of The Economist, which was 
titled ``How Science Goes Wrong.'' The article investigates the 
question, can the scientific community by itself assure the 
quality of its research results, and we have all been taught to 
believe that it can through peer review, the scientific method 
and a culture of skeptical inquiry, and of course, these 
accountability mechanisms are crucial to the integrity and 
value of science, but the article--as the article details, they 
are not always enough. So The Economist provides a timely 
reminder of one reason why today's hearing is important and 
appropriate, and I will limit my comments right now to the 
issues raised in Title I of the discussion draft of the FIRST 
Act, which represents a positive step in considering how do we 
improve the performance of the publicly funded science 
enterprise, and I am pleased to be testifying as a part of this 
effort.
    It is apparent that we all agree that NSF is a remarkably 
effective Federal agency, institutionally quite innovative and 
with a complex, increasingly complex and important mission. In 
this context, Title I makes clear the Committee's desire to 
ensure that NSF is accountable for spending research dollars 
effectively, that research results are valid and that 
alternative research funding models are explored. These goals 
are laudable, yet as detailed in the discussion draft, are 
somewhat scattershot. The draft could benefit from a more 
strategic focus and greater clarity about how and where to 
intervene to incentivize better performance. For example, 
talking also about Section 104 that Dr. Buckius mentioned, I 
would say that it doesn't seem like it would create the new 
level of accountability at NSF that the Committee seeks. I 
don't see this interfering with peer review as articulated but 
the list of eight criteria that would be used to determine if a 
grant is worthy of support seems so general that it could 
actually act against the Committee's aims by adding a 
meaningless rubber stamp to the grant approval process.
    The key strategic goal here has to be to maintain and 
improve the integrity, capacity and productivity of NSF despite 
the fact that Federal support for science is not likely to 
increase significantly over the next several years or more and 
despite the fact that competition for limited resources is 
likely to grow ever more fierce.
    The Committee could work with NSF and other R&D funders to 
explore a range of approaches to improving accountability, 
public value and sustainability of the enterprise. Let me 
mention just five possibilities that I think are not typically 
considered.
    NSF could ensure that peer review panels give full 
consideration as required in NSF's proposal guidelines to both 
of NSF's review criteria, intellectual merit and broader 
impacts. This approach to accountability recognizes that 
excellence arises both from the quality of the science and its 
potential to contribute to larger programmatic goals, and I say 
this fully aware of the question of patience and 
unpredictability that Dr. Buckius mentioned. In this regard, 
NSF would need to expand its definition of peer expertise to 
allow for competent assessment of broader impact.
    NSF could implement a process to identify and reduce hype 
in proposals. The super-competitive environment for getting 
Federal grants encourages hyping the potential for projects to 
yield results that are important, groundbreaking, 
transformational and so on. Hype serves to inflate expectations 
about what a project might accomplish and may contribute to 
bias as well by committing researchers to look for positive 
results even when the evidence is weak or absent as detailed 
again in this Economist article that I mentioned. Hype 
assessment should be done by evaluating the plausibility of 
specific claims and promises of scientific advance and broader 
impacts that are made in proposals, and overhyped research 
could be denied funding.
    NSF could competitively fund red team projects aimed at 
replicating research results from high-priority or high-profile 
lines of research. NSF could similarly fund groups that would 
assess the scientific robustness of computer models used in a 
variety of fields with potential application for policymaking. 
NSF could give preference to researchers whose previous work 
has been replicated by independent research groups, to 
researchers whose academic units assess quality rather than 
quantity of research as the main criteria for tenure promotion, 
and to researchers who demonstrate that their projects have 
been developed collaboratively with potential knowledge users 
or that results from previous projects have been taken up by 
organizations outside of the academic setting.
    NSF could broaden the range of its programs to require 
partnerships between universities and industrial firms, 
nonprofit organizations, museums, state and local governments 
and so on as they do in a number of programs. The goal of such 
partnerships would be in part cost sharing but equally 
important would be creating meaningful linkages between 
knowledge creation and knowledge use.
    While these suggestions are made tentatively, I want to 
emphasize that cumulatively, a portfolio of appropriate 
policies strategically conceived, carefully tested, and 
implemented with adequate staffing might have the effect of 
helping to catalyze a shift in the incentive structure and 
culture of university science in ways that could better allow 
the Federal Government to ensure sustainable, long-term support 
and improved accountability and value for our public 
investment.
    The discussion draft of the FIRST Act in today's hearing 
offers valuable opportunity for consideration of such options. 
I am pleased to discuss these ideas and other points raised in 
my written testimony, and thank you for your time and 
attention.
    [The prepared statement of Dr. Sarewitz follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you, Dr. Sarewitz.
    I recognize Dr. Killeen for five minutes for his testimony.

          TESTIMONY OF DR. TIMOTHY KILLEEN, PRESIDENT,

               THE RESEARCH FOUNDATION FOR SUNY,

                 VICE CHANCELLOR FOR RESEARCH,

                   SUNY SYSTEM ADMINISTRATION

    Dr. Killeen. Chairman Bucshon, Ranking Member Lipinski and 
Members of the Subcommittee, thank you for inviting me to 
testify today on this important draft legislation and for your 
important work, critically important work.
    My name is Tim Killeen. I am President of the Research 
Foundation for the State University of New York and Vice 
Chancellor for the 64-campus system. I would like to thank the 
Committee for releasing two different legislative proposals 
that focus on innovation through scientific research and 
development as keys to improving our economic competitiveness. 
I believe that this legislation should send an unmistakable 
message to our international competitors that we will take the 
actions and make the investments necessary that will keep the 
United States at the cutting edge of the 21st century's global 
knowledge economy.
    Just over one year ago, Superstorm Sandy slammed into our 
coast. As recovery efforts still continue, we should ask what 
would be the impact if the storm had hit 50 years earlier 
without the subsequent research and development over those 
decades. Frankly, it could have killed thousands of people 
living in the storm's path. Hurricane advisories back then 
existed only two days into the future. Computer models and 
weather satellites were in their infancy, and forecasters would 
probably not have predicted Sandy's right hook into the Jersey 
Shore. While not perfect, the modern forecasts save lives and 
property.
    So how did we acquire that ability to offset those costs 
and make such a forecast? The Nation did make continuous 
investments over decades in its research and education 
enterprise. Key to this work was basic research in mathematics, 
computer science, the development of satellites and instrument 
packages that make the vital observations. It included 
interdisciplinary environmental research as well as research 
into the social and behavioral sciences to examine how people 
use storm-related information to respond to warnings. And 
through commitments to STEM education, we had the talented 
human capital to put these tools into use that enable local 
officials to prepare citizens in ways that save many lives.
    Sandy is just one example that demonstrates the linkage of 
research and education to the economy. My longer list would 
include Internet, lifesaving vaccines, medical devices such as 
the heart, lung and MRI technologies developed initially at 
SUNY, the laser, GPS, touch screens, and the ability to access 
natural gas from shale deposits.
    So the Nation owes a debt of gratitude to Congress and this 
Committee for its steadfast support for excellence in research 
and education that has led us to our position as first in the 
world. The new legislation offers a chance to build on and 
strengthen that enterprise. If done well, the return on future 
investment will be incalculable, just as it has been in the 
past.
    As we meet today, however, it must also be said that our 
Nation's role as the world's innovation leader is imperiled. 
The combination of eroding buying power here and the enormous 
resources that other Nations are pouring into these areas is 
creating a new kind of deficit for the United States, one that 
has been called an innovation deficit. It is troubling, for 
example, as the Chair has pointed out, that we have fallen to 
12th among developed countries in the proportion of young 
adults who hold college degrees and our lead in patent 
applications is eroding. So ensuring the health and vitality of 
the research enterprise therefore is and should be a national 
imperative. If we fail to act boldly and in a determined and 
united fashion of the past, we could face a less prepared, less 
highly skilled U.S. workforce, fewer U.S.-based game-changing 
breakthroughs, fewer patents, startups, products and jobs. 
These impacts may not be immediately obvious but the 
consequences are inevitable if we do not respond.
    In my written testimony, I tried to list a set of 
principles that I believe should be considered for the 
legislation. First, even with the major budget challenges we 
face, the bill should make clear the priority that scientific 
and engineering research has as a top national priority and 
provide support for responsible and sustainable growth and 
across all scientific and engineering disciplines.
    Second, the bill should provide robust support for STEM 
education tools, to enhance public scientific literacy, and to 
prepare our young people for the jobs of tomorrow while 
continuing to work to open doors for underrepresented groups. 
Third, we must insist upon both public accountability and 
vibrancy in our research enterprise. Both are needed to retain 
support of the taxpaying public. Our research system has been 
successful because it has relied on highly competitive merit 
review processes to make decisions about funding. This gold 
standard of peer review cannot be allowed to degrade because of 
complacency, lax oversight or overly onerous new bureaucratic 
burdens.
    This international competition we face is real, and we 
simply cannot coast and stay first. We also need to tune up, 
indeed, I would say turbo charge, the innovation ecosystem, 
accelerating the purposeful commercialization of federally 
funded research and technologies. In New York, for example, led 
by Governor Cuomo, we are working on a full innovation agenda 
tied to research and education and leveraging higher education 
and industry and businesses as never before.
    Throughout our history, this Nation has kept the promise of 
a better tomorrow for each new generation. This has been 
possible because our economic prosperity has relied on our role 
as the global innovation leader, so the message should be sent: 
the United States will remain at the absolute cutting edge of 
the 21st century global knowledge economy.
    Thank you so much for inviting me. I will be glad to answer 
any questions.
    [The prepared statement of Dr. Killeen follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you, Dr. Killeen.
    I now recognize Mr. Brown for five minutes for his 
testimony.

                 TESTIMONY OF MR. JAMES BROWN,

                      EXECUTIVE DIRECTOR,

                    STEM EDUCATION COALITION

    Mr. Brown. Well, first, thank you to the Committee for the 
opportunity to be here today and offer our coalition's views on 
the draft legislation that is before us and on issues related 
to Federal STEM education policies.
    As you mentioned in your introduction, we are a very broad 
coalition but what unites us is the belief that we need to 
elevate STEM education as a national priority. At the end of 
our testimony, our written testimony, there is a list of the 35 
members of our coalition's leadership council which inform our 
policy positions and which guide our activities.
    I am fond of mentioning a couple of statistics whenever I 
talk about this topic that I think really clearly illustrate 
the challenge that we have both for our coalition and for the 
country. A 2011 poll showed that 93 percent of parents think 
that STEM education should be a top priority for the United 
States. The poll also showed that little less than half believe 
it is actually a priority for the United States, and something 
I think is at least a little bit related, and that is, another 
poll I saw showed that 68 percent of parents think their kids 
are in the top third of their class, which I think those are at 
least ironically linked, right?
    So suffice it to say, one of the things this Committee has 
done over the years is with a long line of witnesses 
established the connections between STEM education and the STEM 
workforce and the future of the country. They are inextricably 
linked. They underpin our capacity for innovation and our 
American leadership. I also think the parents are on to 
something else, and that is that they get a very clear sense 
that STEM education, the STEM fields are where the best jobs of 
the future are going to be, and if you look at the statistics 
as an aggregate, the STEM fields have higher salaries, lower 
unemployment, and I think just parents get that sense from 
looking at the world around them, that is where the future is 
going. But it is one of the easiest things in the world to talk 
in broad terms about the importance of STEM education. It is 
much harder--the Committee has a much harder job in formulating 
policies that are practical, that are real to deal with these 
challenges, and in that spirit, we tried to answer your 
questions in as much detail as we possibly can in our written 
testimony, and we have also attached a letter to that testimony 
that in a five-page letter that addresses our views on the 
Administration's most recent budget proposal which was signed 
by more than 50 leading national organizations. So we hope that 
is helpful to you.
    I wanted to touch on three topics that I thought were the 
most important points of our message to you, and that is--the 
first is on the subject of fiscal sustainability. The other 
witnesses have acknowledged this, and I think it is absolutely 
clear when you look at the budget environment of today and you 
look at the challenges that we face, that the Federal portfolio 
of more than 200 different STEM education programs across 
multiple agencies is in need of a very serious overhaul, but 
that overhaul, if we are to do the service that our kids and 
our future innovators deserve, has to be based on evidence and 
it has to be based on stakeholder input and it has to be 
capable. We have to make decisions as a country that will scale 
up the programs that we think work and that will improve or 
will eliminate the programs that are not working over time, and 
you emphasized this in your opening statement: this has to be a 
long-term process.
    The other thing I would just say is, we also have to 
recognize that every Federal education program can be improved 
and that if we are going to use taxpayer dollars to support 
them, we need to have constructive oversight mechanisms. That 
is simply a fact of life.
    Another point to make is that we have offered some views in 
our testimony around what we think the properties of a good 
coordination and management mechanism would look like, and some 
of those relate to the fact that it has to have a good conduit 
for stakeholder input, there has to be a mechanism for that 
input informing policy decisions, the coordinating mechanism 
has to have a voice in budget deliberations at the various 
high--very highest levels of government, and we have to do what 
we can to expand the evidence base around what is working, and 
that is a very complicated problem. It is not simple.
    And finally, why does stakeholder input matter? At the end 
of the day, the challenges we face in this space are so 
complicated that no one entity in government, no one person, no 
one education group is going to be able offer a master plan 
that will solve these challenges. It is simply not going to 
happen. So we have to work together across party lines, across 
disciplinary lines, and across the boundaries of Federal 
agencies to make it happen, and we have to do it over time.
    And the last thing I would just echo, and it is something 
you mentioned in your opening statement, Mr. Chairman, and that 
is, we have to be persistent. This is a long-term challenge, 
and I hope what we can do with this draft legislation is set in 
place a process that will get at this challenge over time. 
Thank you.
    [The prepared statement of Mr. Brown follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you very much, Mr. Brown.
    I would like to thank all the witnesses for their 
testimony. At this point I remind Members that the Committee 
rules limit questioning to five minutes, and at this point the 
Chair will open the round of questions. I recognize myself for 
five minutes.
    Dr. Buckius, in your opinion, yes or no, does the proposed 
FIRST bill have any what you would call Congressional 
interference in the peer review mechanism for evaluating grants 
at NSF?
    Dr. Buckius. Can I do yes and no? So the two points that I 
would like to make on this regard is regarding who would 
actually affirm the awards that go out of the Foundation. The 
way the language of the discussion draft says it, the Director 
should. I don't believe anyone is all knowing enough to be able 
to affirm all the 11,000-plus awards that go out of the 
Foundation, so that is one item I would like to change if I had 
my choice.
    The other one is in Section C where it talks about prior 
announcements of awards before they are awarded. You could only 
imagine in some of the engineering directorates, we only fund a 
few out of 100, so single digits. So that means that there is 
going to be 90-plus folks who prior to the award can energize 
the system, can create what I would call chaos. So the system 
would become extremely bogged down. So those are the two points 
on the wording that I would recommend you consider.
    Chairman Bucshon. Thank you.
    Dr. Sarewitz, do you have any comments on that question?
    Dr. Sarewitz. Just to reiterate what I said. It seemed to 
me that to a certain extent it depends on what you actually 
expect. As I said, it seems to me the language kind of endorses 
the possibility of a rubber stamp that any program manager or 
up through the directorship could engage in without much risk 
to their conscience or integrity. So it doesn't seem to me that 
it offers a direct threat to the integrity of the peer review 
process, but on the other hand, it doesn't seem to me that it 
offers much in the way of actual assurance.
    Chairman Bucshon. Okay. Thank you. And Dr. Sarewitz, do 
individual scientists behave based on incentives? I mean, how 
can we change the current incentive system so that we can 
change the culture of scientific funding? And some of you in 
your comments--I mean, I was a medical doctor and I did some 
basic science research when I was in medical school, and I 
think one of you commented on that the incentives can be 
aligned with volume of work, less focus on quality of work. I 
mean, how can we try to revise that culture, so to speak, so 
that people are rewarded for the--more along the lines of the 
quality of the work, and I would say the accountability is 
brought more forward rather than there is this pressure 
amongst--I mean, I understand because my professors told me, 
the pressure to produce work, and that seems like we could 
maybe--we could change the incentives around some. Is that a--
can you answer that?
    Dr. Sarewitz. Let me make a couple of comments, and I think 
that my colleagues to my right and left would have more higher 
view, ability to answer this question as well. But it is 
certainly true that the level of time that many faculty members 
spend chasing after research dollars and pumping data into 
papers so that they can build their publication lists makes 
it--often makes it difficult to actually focus with the level 
of depth and concentration that one would like on one's work. I 
think this is a common experience across academia. I think 
there are ways to deal with that. I think much of this has to 
do with the culture of academia itself, and I think many 
universities are experimenting with different ways to try to 
address it. I have suggested a few things that I thought could 
be done on the NSF end.
    At my university, Arizona State, and I think, as I say, 
many universities are addressing this issue, one of the types 
of things we are doing is trying to organize in a more 
transdisciplinary way, which means around problems. That allows 
people from different disciplines to be attracted to research 
groups with a more problem-solving focus that I think kind of 
changes the perspective from one of just productivity and 
turning the crank to getting the papers done and getting the 
grants in to actually thinking about what is the role of one's 
intellectual endeavor vis-a-vis a problem that the university 
or the community or stakeholders have come together to identify 
as worth resolving. So I think there are lots of organizational 
things that can be done. I do think it is a problem. It can't 
be addressed with a simple quick fix.
    Chairman Bucshon. Thank you. I yield back now and recognize 
Mr. Lipinski for his line of questioning.
    Mr. Lipinski. Thank you, Mr. Chairman.
    The last NSF reauthorization I had authored, so of course, 
nothing is going to be nearly as good as what I authored, but I 
really want to focus on what are some of the things going on 
with NSF here, and I hope that we can make changes because we--
from this draft, because we certainly have heard some issues. I 
just want to follow up on what the Chairman was asking with Dr. 
Buckius and also get Dr. Killeen to add it here if he has 
anything.
    We were talking about--you were talking about Section 104. 
The new review requires the Director to make an affirmative 
determination that awards are in the national interest, worthy 
of Federal funding and meets one or more lists of potential 
outcomes, and Dr. Sarewitz had pointed out that--he pointed to 
the eight areas that had--that one of those had to be met, but 
this is an ``and,'' so it has to be all three of these. One 
issue is what is a--what is the national interest and how do 
you define that. I don't know if anyone wants--that gets to 
be--I am not sure if that is very broad or very narrow, and 
that is something I think we really need to work out. But 
leaving that aside for the moment, Dr. Buckius had said that 
one person could not affirm--be able to affirm the 11,000-plus 
awards. Is there any way to--that such an evaluation could be 
carried out? Do you see this as a need for this? I mean, what--
besides the fact that one person couldn't do it, the Director 
of the NSF doesn't have the expertise, the ability to go 
through 11,000-plus, is this--you know, what other comments do 
you have on instituting such another review?
    Dr. Buckius. So the current process is one where you have 
multiple peers assessing the merit. That goes to the program 
director. The program director has to then justify why the 
award will be made or not, and then the division director has 
to sign off, and so as a division director, I would read all of 
the evaluations of all the awards we are going to go through 
and all of the ones that were on the border. It is a very 
detailed process already, and so I think that two-level review, 
I think it works really well. That is why my point is, I think 
the wording, as you have noted, they are all ``and'' but I 
think that those could be justified. So I really don't think 
that we need to make a major change. I mean, I think your point 
here is, you want an affirmation, and I think that is a very 
reasonable thing in general, but I just think putting it onto 
one person is the hard part.
    Mr. Lipinski. And Dr. Killeen, do you have any thoughts on 
that?
    Dr. Killeen. I have a few----
    Mr. Lipinski. Microphone.
    Dr. Killeen. --comments about the prior notification and 
also his comment about single person affirmation. The program 
includes all of those peer review commentary and the program 
director review and write-up and the division director's sign-
off, and then the portfolios of grants are then further looked 
at by committees of visitors that come in periodically to look 
and see whether the balance is right. So I do worry a little 
bit about every proposal conforming to a specified set of 
criteria because we are talking about--and that is why I use 
the word ``vibrant'' in my testimony. We are talking about 
scientific inquiry that includes following leads that may not 
take you anywhere. That includes setting hypotheses. So 
scientific inquiry is not necessarily always reliably, 
predictably serving a particular element of the national 
interest. But I think the portfolio has to do that. The basic 
organic mission statement for NSF really speaks to the national 
interest, and all of those ``and'' statements are all directly 
relevant and are addressed often in these reviews.
    There is another comment I would like to make about Section 
104 in that if the Director of NSF were to affirm, then it 
would take that person, he or her, out of the appeal process, 
which is also another part of the current mechanisms that are 
in place. As the division director signs off on every grant, 
the AD looks at the balance--enough young investigators, 
geographic, disciplinary, collaborative. The committees of 
visitors come in. Then if an investigator gets declined and 
wants to appeal that decision, there is a very formal and 
rigorous process at NSF for that appeal and it goes up through 
two courts: the assistant director, and I managed several of 
those appeals during my stay, and all the way to the Director 
of NSF. So I think that would also be influence. There would 
have to be some other mechanism to ensure right of appeal for a 
declined proposal. So I have those comments about that Section 
104.
    Mr. Lipinski. Thank you.
    Chairman Bucshon. Mr. Collins is recognized for five 
minutes for your questioning.
    Mr. Collins. Thank you, Mr. Chairman. I want to thank all 
the witnesses for coming today. It is an important hearing. As 
a mechanical engineer, I have spent my entire business career 
in engineering-related and science-related companies, and I 
think certainly we are here today with budget deficits and 
related debt out of control. It is important that we help 
Americans understand the importance of funding for the programs 
this hearing is referring to and the impact that funding has on 
future economic growth in the United States. Basic R&D and 
government help in commercializing that R&D is certainly a 
proper and a vital role of government.
    So Dr. Killeen, a fellow New Yorker, a question for you, 
and I will start with a point of interest. I have had a 
longstanding relationship with the State University of New York 
at Buffalo as both a mentor to the Center for Entrepreneurial 
Leadership and also the annual Panasci Science Competition, so 
I know the great work that the university does.
    SUNY and the State of New York have embarked on a series of 
efforts designed to take advantage of the role research can and 
should play in the innovation and economic growth, and we often 
hear in Washington that the states are the laboratories or the 
incubators of innovative public-private partnerships, and I 
think it would be helpful if you described some of the efforts 
in New York--I know I am familiar with many of them--that are 
using this government funding so that we can, you know, 
understand the importance of it and particularly some of those 
which you think could have follow-up national implications, 
touching on the so-called innovation deficit.
    Dr. Killeen. Thank you very much, Mr. Collins, and I noted 
in my testimony that research and development has accounted for 
roughly 40 percent of the total economic growth of the country 
since World War II, so we are talking about major return on 
these kinds of investments. In New York, as you pointed out, I 
think there are some very interesting experiments underway in 
really closing the gap between what I would call the knowledge 
creation and dissemination community, which is researchers and 
educators, and the jobs creation community, which is the 
private sector and commercial firms, and there is a win-win 
situation there with job prospects for students and so forth; 
so making those technologies coming to fruition from bench 
research funded by Federal dollars, making that transfer into 
commercializable products and services, what we call the 
innovation ecosystem, making that work really well I think is 
something we are really trying to focus on in New York with 
things like Governor Cuomo's Start Up New York program, which 
is turning each one of our 64 campuses into a tax-free zone for 
up to ten years for qualified companies to work in close 
combination with academic researchers to make sure that the 
technologies as they get developed and the new knowledge that 
gets created can have applicability. We also have entrepreneurs 
in residence so that professors and investigators who may not 
have any affinity or experience with writing a business plan or 
forming a new startup company can get help along the way.
    So I would say that the innovation ecosystem is a system 
that is actually as weak as its weakest components, and we need 
to tune those components up going from the discovery-class 
research all the way through to full-blown commercialization 
and make sure that we don't lose traction along the way so that 
the fruition of the federal investments are seen in the 
economic development. I personally believe that there is much 
more than we can do in that, and I believe that New York is 
going to set the path, blaze the path to do this extremely 
well.
    Mr. Collins. Well, I agree, and again, I think, you know, 
when we have these budget deficits and the country is saying 
why do you spend money here and not here, you know, everyone 
has a good case to make for the money they spend but I think it 
is important that we connect those dots, what you are talking 
about, between basic research and then ultimately getting it 
out and creating jobs with it. It is not enough to just do the 
research, put it on the shelf as an academic exercise, and I 
have noticed in New York, at least, you know, we are 
emphasizing that in an important way. So I appreciate that 
input.
    Dr. Killeen. If I could make a last sentence, I really 
applaud your work and that of Mr. Kilmer in the TRANSFER Act, 
because I think that really is homing in on a particular piece 
of the innovation ecosystem that really needs that kind of bold 
support. Thank you.
    Mr. Collins. Well, that is what we refer to as the Valley 
of Death where the ideas come forward, just hasn't quite 
attracted a business partner. So currently, there just isn't 
that funding available, and the TRANSFER Act will allow 
universities to help attract a level of funding to help bridge 
the gap in that Valley of Death and has bipartisan support and 
hopefully that is something we can move forward on very 
quickly. Thank you all again for your time.
    Chairman Bucshon. Thank you. I now recognize Mr. Kilmer for 
five minutes.
    Mr. Kilmer. Thanks, Mr. Chairman, and thank you all for 
coming to address us today.
    I think this is a big deal. This is part of my excitement 
about being on this Committee. We had a--I used to work in 
economic development in Tacoma, and we had a sign on the wall 
that said ``We're competing with everyone, everywhere, every 
day forever,'' which I always found terribly intimidating. But, 
you know, I think, you know, if you look at the genesis of 
COMPETES and Rising Above the Gathering Storm, I think it is a 
shot across our bow in terms of what it takes to increase our 
global competitiveness and prepare tomorrow's workforce, and it 
was done initially in a bipartisan way, and I think that is the 
hope here as well.
    Several of us on this Committee as part of the new 
Democratic Coalition have worked on developing a set of 
principles to guide the reauthorization of COMPETES 
legislation, and in reviewing this draft, there is some overlap 
including in the legislation that was just discussed about 
dealing with the valley of death and improving proof-of-concept 
ideas or seed money for projects that can lead to 
commercialization. At the same time, I think as drafted, this 
neglects some I think very core issues around the lack of 
funding for basic research and lack of an innovation title, and 
I want to ask initially at least about the lack of an 
innovation title. As drafted, the FIRST Act doesn't include any 
directed authorizations for programs such as the Regional 
Innovation program, the reauthorization of a program authorized 
in the 2010 COMPETES legislation to help spur the development 
of regional innovation clusters or in general any pilot that 
continues to examine ways to push innovation on a regional 
level.
    I would like to address the first question to all of the 
witnesses. Do you feel it is important to include an innovation 
title in the FIRST Act, and specifically if you can speak to 
ideas around regional innovation clusters?
    Dr. Killeen. I am happy to go first. I think regional 
innovation is very much a sweet spot. Communities have built up 
with past capacities, say, for example, in manufacturing that 
now need to reach beyond the past into the new economy, and the 
new economy is different from the old one. It is a knowledge 
economy. So I think these regional clusters where you have the 
combination of intellectual capacity and human capacity, 
students coming forward with competencies, that is why the 
connection to higher education is so important. You have the 
flow of talent, you have the intellectual setting of the--and 
the interdisciplinary kind of collaboration that is needed, and 
you put that in a regional setting where there may be specific 
things. So in New York, the regional economic development 
councils have been very successful in forging that. So I would 
personally strongly support an innovation title.
    Dr. Sarewitz. Let me reinforce that and add a little 
something to it. Dr. Killeen has mentioned a couple of times 
the notion of innovation ecosystem, and I think those who have 
been doing research on innovation systems have come 
increasingly to appreciate the importance of regional 
connections, and if you go back and look at the origins of 
Silicon Valley and the Route 128 corridor around Boston, what 
you see is the role of DOD in catalyzing all the different 
elements of the ecosystems so they were aggressively funding 
basic research at universities in the context of the defense 
and military mission but also in the context of trying to 
increase the flow of experts who they could then hire into the 
defense system, but they were also providing funding for 
startup firms, they were negotiating intellectual property 
agreements, helping negotiate intellectual property agreements 
between faculty and small startup firms, and from these--from 
this ecosystem approach that DOD took in the late 1940s and the 
early 1950s grew of course these innovation powerhouses around 
Boston and Palo Alto. So I think it is really important to take 
both a regional approach and an ecosystem approach in trying to 
understand how to intervene in these systems.
    Dr. Buckius. Well, the only thing I can really add to that 
is, and it goes back to the previous testimony in July on the 
TRANSFER Act, the recommendations that are in Section 421 here 
I think will have an impact. At Purdue, we have evidence that 
we have done very similar things with an endowment and we can 
show for Federal support that when you provide some proof of 
concept or development funding, we can show a 40 percent 
increase in licensing rate over a 35-year history when you 
invest this way. So we are very supportive of the TRANSFER Act 
and what it can do in general.
    Mr. Brown. I just note that our time has expired and I 
don't think I have anything to add. Thanks.
    Mr. Kilmer. Thank you, Mr. Chairman.
    Chairman Bucshon. You are welcome. I recognize Mr. 
Schweikert for five minutes.
    Mr. Schweikert. Thank you, Mr. Chairman.
    And I don't want to get too off track here, there was a 
couple basic questions I wanted to sort of get my head around, 
and Dr. Sarewitz, just as a bit of background, you have 
actually staffed this Committee.
    Dr. Sarewitz. The gentleman in the red vest was my esteemed 
boss.
    Mr. Schweikert. Okay. We will talk about whether he was a 
good boss or a bad boss later.
    Dr. Sarewitz. He was a wonderful boss.
    Mr. Schweikert. Okay. I hand you a clean slate and say we 
are not going to model the peer review mechanics, the way we 
distribute funding. The methodology we do today isn't going to 
be the model we built back in the 1950s but literally I am 
going to ask you to design a modern system based on, you know, 
the speed of distributed information, you know, the way the 
world works today. How different would it look?
    Dr. Sarewitz. Can I get back to you next year on that, Mr. 
Schweikert? No, it's a great question because--and I can't 
answer it directly but I can say that many of the issues that 
the Committee in the draft bill are dealing with are the legacy 
issues of the system that was created largely in the 1950s and 
that created the initial conditions that now we see in the 
system that we have, and I think that much of what is being 
discussed today is about how to move away from a really over-
simple view of innovation that started with ramming some 
resources into the basic research end of things and having 
those diffuse out into the private sector--we all know that is 
not how the system works.
    Mr. Schweikert. Well, particularly today, and that is the 
nature of my question is, you know, let us face it is, it is a 
turbulent--you know, you never know what the next discovery is 
going to be. Sometimes it is in someone's garage, sometimes it 
is in a lab, sometimes it is on the Internet, and I have this 
great fear we are still operating in this sort of silo 
mechanic, and besides my other great concern, which I would 
love others on the panel who are willing to go there in sort of 
a peer review process where only a small number are getting 
funded. Having read some of these, they almost sometimes read 
more like marketing pieces, and my fear--and you all know, 
there is literally, you know, grant-writing consultants out 
there that actually have marketing backgrounds helping 
academics write grants. So, I mean, there is something horribly 
wrong in the way the silo works, so what would you change today 
when we are working on it legislatively?
    Dr. Sarewitz. So I will just talk for a second so I can let 
my colleagues contribute here as well, but I actually think 
that the obsession with the individual investigator is a bit of 
a relic that we need to escape from. We are gradually escaping 
from it. I think NSF's move towards focus on centers, for 
example, is a productive way to think about it.
    Mr. Schweikert. We should disclose to the group, we are 
both from Arizona State University, and that has actually been 
one of the fixations of now the largest university in the 
country is bringing in, you know, discipline, you know, 
multidiscipline----
    Dr. Sarewitz. And organizing around problems. And I think I 
would want to reemphasize the importance of a focus on the 
relationship across all sectors and between institutions rather 
than particular specific institutions.
    I think it is the ecosystem function that matters, and it 
is certainly true that the weakest link in an ecosystem can 
compromise its function but we focus much less on the 
interactions than we do on the individual components, and I 
think that that is the key to addressing the sort of rethinking 
that you are getting at, Mr. Schweikert, but I would be 
interested in----
    Mr. Schweikert. And it is always great when you give 
everyone 60 seconds to answer one of the great questions of 
life. Doctor?
    Dr. Buckius. Can I just give you two principles that I 
would put as foundational? You have to invest in the genius of 
our scholars and our people. You don't want a top-down system. 
You want the best ideas come from the genius ideas of the 
people.
    Mr. Schweikert. But isn't that one of the design problems 
we have today? We have very much sort of an ivory tower system 
that we are sort of trying to break apart.
    Dr. Buckius. But the people have the ideas and so if we 
start to tell them what the ideas are, we won't get the best 
ideas. The other principle I think is certainty. There is so 
much uncertainty now. We are losing a cadre of innovators that 
will never come back. So we need some certainty in the system.
    Mr. Schweikert. Okay, in 15 seconds.
    Dr. Killeen. Fifteen seconds? It is a great question, and I 
think there are many factors to it. The peer review system, it 
is like a garden. It needs to be tended. There are bushes and 
flowers and so forth. I do think there are some new historic 
forcing functions that have to be taken into account, and NSF, 
in my experience, does a fabulous job of these kind of 
discussions and experimentation. One would be that the first 
past-the-post model of peer review needs to be opened up to 
more collaboration, which is what your question is driving at--
--
    Mr. Schweikert. And I know we are over time, but I have 
always had this curiosity of why isn't there a level of almost 
crowdsourcing in the reviewer process----
    Dr. Killeen. Absolutely.
    Mr. Schweikert. --on a very large scale has a purifying 
effect, and that is for a future round, so thank you for your 
tolerance, Mr. Chairman.
    Chairman Bucshon. Thank you. I will now recognize Ms. Esty 
for five minutes.
    Ms. Esty. Thank you, Mr. Chairman.
    Mr. Brown, you haven't had a chance to speak for a while, 
so I think it is time for a question for you. In your 
testimony, you spoke about the poll finding that only one in 
five college students found that they were adequately prepared, 
well prepared in high school through the STEM disciplines, so I 
would like to follow up on that.
    We have been researching this pretty extensively in 
Connecticut, and we have seen the difficulty schools are having 
in supporting STEM education and making it accessible to 
students, particularly, frankly, in the lower grades, and I 
have introduced something called the STEM Jobs Act, which is 
focused on enhancing professional development, again, 
especially in these lower grades where frequently our educators 
are not--this is not their field, this is not what they are 
comfortable with. And I would like from your point of view as 
Executive Director of a STEM ed coalition what you think the 
best way the Federal Government can be successful in 
encouraging STEM support for the teachers, particularly in 
these lower grades.
    Mr. Brown. Thank you for the question. The National Science 
Foundation has a number of programs in this area, and if you 
look across the rest of the Federal agencies, the largest 
program in the Federal Government that deals with STEM 
education as a sole purpose is something called the Math and 
Science Partnership program at the Department of Education, and 
one of the challenges we face when you talk about teacher 
professional development is that the teaching environment is 
changing really fast now, technologies in the classroom we are 
dealing with new standards in many states and teachers are 
challenged to keep up with the state-of-the-art fields that 
didn't exist 15 years ago are now the focus of major education 
reform efforts. And so that landscape is changing very quickly, 
and one of the things that research shows that the quality of 
the teacher in the classroom is a really important indicator of 
the success of students. The corollary to that statistic of 
kids not feeling they are prepared in college is the statistic 
that only about 40 percent of the people who enter college in a 
STEM degree finish the degree in six years.
    So I think one of the principal goals of any coordination 
function across the agencies or any Federal strategic plan 
needs to place at its center the notion that we have to recruit 
the best possible teachers into these jobs and we also have to 
make sure that the existing teaching workforce is getting all 
those supports that they need, and the Federal Government is 
not the primary provider of resources to teachers, that is the 
states, so we have to make sure that the Federal Government is 
aligning its needs to the on-the-ground truth that educational 
stakeholders can bring to that equation.
    Ms. Esty. Thank you. And then I would like to turn again to 
this innovation and ecosystem idea, which I think is 
tremendously important.
    I was struck as you were all speaking about the fact that 
DOD was central to the development in Palo Alto as well as the 
Boston-Cambridge area, but let us look at what DOD has: 
virtually unlimited R&D money, long-term, no question that 
money is going to be there, as well as specific goals in 
breaking down silos to get people to focus on how to achieve 
specific goals. So if you could think about in this constrained 
budget situation we find ourselves in what lessons do we take 
from this as we apply it towards public-private partnerships, 
things like the semiconductor research corporation? How can we 
think about leveraging of U.S. dollars, ensuring a constant 
stream of dollars for basic R&D that will only come out of the 
Federal Government, and nevertheless recognizing that we will 
need help from the private sector to leverage that money, 
ensure that stream keeps going? So whoever wants to weigh in on 
that?
    Dr. Sarewitz. Just briefly, first of all, I think you have 
captured exactly the essence of the problem. Let me add two 
other things about DOD. I mean, you mentioned the mission. That 
is very important. Another is that it is both--it is and was 
both the entity that commissioned the R&D and was the user of 
the product so it could hold the feet of those who were doing 
the R&D to the fire to produce what was necessary, and then 
here is another key point. They had a pretty high price point. 
It is not that just they spent a lot of money on R&D, which 
they did; they spent a lot of money on procuring things and 
they could do things like spend $30,000 for a 40-pound GPS 
receiver that was the first one that was going to be used as a 
prototype that then created some confidence in the producers 
that they could then spin this out, particularly in civilian 
applications. It is very difficult to reproduce that in the 
civilian sector. But I do think one of the keys is close 
understanding between the users, potential users of the 
information and those who are producing it, and often this gets 
people who are applicants for basic research a little edgy 
because they think it is about controlling the agenda of basic 
research. That is not the case. Much basic research is done in 
the service of particular goals. It is not controlled. It is an 
exploration of the fundamental science, but it is within a 
context, and I think it is very important to understand that 
much productive basic research is carried out within a context 
that requires communication between those doing the research or 
their entities and the ultimate user of the knowledge.
    Dr. Killeen. I would just like to add if I could, it is 
another perceptive question. I think it is all about partnering 
and partnerships, and partnerships have to be authentic and 
they have to be conducted with integrity and all the 
accountability layers and transparencies that are needed. But I 
think there is an opportunity here to open up the throttle on 
our R&D enterprise largely writ in this country to close those 
gaps, to develop policies that allow those intellectual 
properties to flow and ebb and ebb and flow. This is not to 
take anything away from basic research. It is an ``and.'' Basic 
research is absolutely essential and needed in order to enable 
these kinds of larger-scale public-private partnerships that 
can drive regional economies, and we have seen that and we have 
examples of that happening in our state.
    Dr. Buckius. Do you want more? So, just one quick comment. 
Partnerships other than the Federal Government are going to be 
important to every one of us. We have approval from the board 
of trustees Purdue to fundamentally change our intellectual 
property so that we can be what I would call true partners now 
with industry rather than a remote partner, and so we hope that 
we are going to become, well, the preferential partners in 
cases but our goal is to be much better partners with folks 
than we have been in the past.
    Ms. Esty. Thank you all very much.
    Chairman Bucshon. Thank you. I now recognize Mr. Hultgren 
for five minutes.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you all for 
being here to discuss this very important subject and important 
legislation that is going to be before us here. Scientific 
research funded through NSF, NIST, OSTP are such an important 
piece of America's innovative ecosystem as we have all been 
talking about this morning, and it is crucial, especially at a 
time like this fiscally challenging time, for us to ensure that 
our money is spent in the smartest possible ways.
    I am also greatly concerned by the Administration's 
proposed STEM reorganization, which many of the scientific 
community were equally caught off guard with. I am glad this 
Committee will continue working with the stakeholder 
communities, the people actually on the ground and in the 
classrooms, to ensure our STEM education proposals are in the 
best interest of our children and the disciplines we hope to 
make more accessible to them.
    Mr. Brown, I wonder if I can focus this to you at first. 
What has been your reaction to the proposed STEM reorganization 
and how does this draft legislation address potential concerns 
in the STEM education stakeholder communities?
    Mr. Brown. Well, first I would like to thank you for 
stepping up this Congress and becoming one of the co-chairs of 
the STEM Education Caucus. It is nice that you and Mr. Lipinski 
are co-chairs and on this Committee. One of the things I 
mentioned, in our written testimony we cite a lengthy letter 
with views on many different aspects of the Administration's 
budget proposal. I think you characterized it correctly in 
terms of the reaction from the community. In fact, the nature 
of that proposal and the sort of sweeping changes that were 
proposed with very little stakeholder input and with very 
little clarity on how the missions of programs proposed for 
elimination would either be kept or integrated into other 
efforts and across agencies, across appropriations bills. I 
think the budget proposal itself has raised this issue of 
needing to create a more formal mechanism for stakeholder input 
into STEM education programs, which it may be somewhat of a 
blessing in disguise considering that despite all these 
concerns, if you look at how it is reflected in the 
appropriations process we have, it hasn't really gone very far. 
So if the result of that process is to create a better 
stakeholder mechanism, I think we made some progress there. But 
I would like to give the Administration credit for giving us a 
good example of how things can work the right way, and that 
is--last summer in July, the President announced, I believe in 
the Rose Garden, a $1 billion STEM master teacher coordination, 
and frankly, it is kind of hard not to default into my Austin 
Powers voice when I talk about something like that, but it was 
a really large investment and it was news to a lot of the 
people in this room, and, you know, that is a great challenge, 
but I am not sure that, you know, everybody looked at that as 
being vetted with the community and having the right kinds of 
input, and to the Administration's infinite credit, they got a 
large group of stakeholders together and worked on this problem 
for about six months and produced something in the budget 
proposal that was a $35 million very focused pilot program that 
recognizes the challenges in creating a national STEM master 
teacher core. That is the kind of process we like to see on a 
much larger scale.
    Mr. Hultgren. Thanks. I would open this up to all of you if 
you have some thoughts. We certainly have already discussed 
much about the post-secondary education STEM efforts within a 
formal setting, but I would like to get your perspective on the 
importance of utilizing informal science education institutions 
such as museums as an avenue for STEM engagement that cannot 
always be made in the classroom, especially to earlier grades. 
We are so spoiled, those of us who spend time here in 
Washington, D.C., just the incredible museums we have. I feel 
the same way in Chicago of just amazing museums. I was down at 
the Museum of Science and Industry, just this week I was back 
visiting with them and seeing some of their latest exhibits, so 
inspiring, able to walk around and just see the faces of young 
people excited about science through that. I wonder if you 
could talk a little bit--I only have a minute left but would 
love to hear your thoughts if any of you have thoughts of some 
of those informal settings that can inspire and be a key 
component of the ecosystem of STEM education.
    Dr. Buckius. So at NSF under broader impacts, many of the 
proposals do talk about informal education, and so when we are 
funding activities in even basic research, the broader impact 
side can address informal education through museums, and I 
don't have the data but I was absolutely amazed when those 
folks come forward with the impact that museums and informal 
education can have on this country.
    Dr. Sarewitz. Very quickly, yeah. We have had fabulous 
interactions with museums, also with the informal science 
education group in education and human resources at NSF. 
Museums--our interest is in getting citizens engaged in 
discussions about science and technology and their social 
implications. Museums are wonderful places because they cycle 
through such huge numbers of people who are automatically 
engaged but museums are very creative. They really love this 
kind of stuff, and it is actually a different model of science 
education that I think hasn't nearly been taken seriously 
enough but we found to be very, very productive.
    Dr. Killeen. I would just add, just generalizing your very 
astute comment, I think experiential learning in all settings 
at all levels of education has been shown to give better 
outcomes in terms of STEM competencies and just public affinity 
for science. Museums are great. You know, it can change 
people's lives to have an active, hands-on experiential 
opportunity post-secondary, pre-secondary, and we need to do 
that at an enterprise level in order to really attract the best 
capital, human capital to the table.
    Dr. Sarewitz. Can I add one quick point to that, which is, 
it has curricular implications too. We have discovered that 
through museums, getting students interested in the social 
aspects of science and technology, then get them interested in 
the science and technology itself in ways that they wouldn't 
have been beforehand.
    Mr. Hultgren. My time is expired, but I do want to just say 
thank you. We all agree how important this is. I do have to 
tell you, they are nervous again with some of the proposals 
that have been coming out, and just we are shocked, so I ask 
again, any way we can be working together, linking arms, making 
sure everybody understands how important this is and that we 
are not pulling the rug out from this key component of museums 
that absolutely spark interest, certainly in young people but 
even in parents that get to go along with their kids and 
things.
    So with that, Chairman, thank you for your generosity and 
the time, and I appreciate you holding this hearing. Thank you. 
I yield back.
    Mr. Bucshon. I now recognize Mr. Peters for five minutes.
    Mr. Peters. Thank you very much, Mr. Chairman, and thank 
you, gentlemen, for being here.
    I want to go back to something we talked about, an 
observation that there seems to be a little bit of 
inconsistency in the draft with respect to streamlining and 
with respect to this national interest, and I guess the 
observation I have is that the system that we have developed 
for science, this peer review system, has proven so effective 
because it has been independent of the government, and we don't 
do a lot of supervising of what basic scientific research would 
be because-- and by its nature, we don't really know where it 
is going to lead. So does it strike you as inconsistent with 
that to add this overlay of a governmental judgment on whether 
it is in the national interest? Does that concern you at all? 
Dr. Killeen, maybe?
    Dr. Killeen. Well, If I have a concern, it is mostly the 
message that this bill will send out to the world. In fact, and 
as my testimony indicated, I hope it is vibrant, enthusiastic, 
let's take on the 21st century, U.S. can do kind of message 
rather that one that seeks to find the constraints and stiffen 
the sinews. I think my personal experience with NSF, it is a 
magnificent national asset, and we don't want to throttle it 
back nor do we want to have the self-policing get to a point 
where there are clear infractions of integrity and 
accountability. So this is a delicate balance that you have to 
face. We need to unleash the high-performance aircraft here and 
recognize that a lot of the flaps are going to have to be 
moving to keep it stable and flying and not limit the 
opportunity space.
    Mr. Peters. It is nice that we are the envy of the world in 
what we have created. We have done it, and we have respected 
that innovation happens outside of this building, to say the 
least, and for us to be putting anyone in judgment of what is 
in the national interest in that context seems to me to be 
shooting ourselves in the foot.
    The other thing I will make an observation of is that with 
respect to streamlining, we are asking in Section 301 that the 
Office of Science and Technology Policy look at regulations to 
try to make streamlined, and now we are adding this Section 
104, new requirements that would increase the administrative 
burden on NSF and on its researchers. So it just seems to me 
that we ought to be combing out of this--the interference that 
the government would pose on a system of scientific research, 
not just with NSF but across the board including things like 
NIH that has proven to be so innovative and productive and has 
set us up as the leaders in science in the world. So it does 
strike me as odd that we would be in this Committee trying to 
find ways to constrain what had been so successful.
    Which bureaucratic--assuming you accept the notion that we 
should be asking the government to decide what the scientific 
value or the national interest is in this research, what would 
be the kind of bureaucratic setup and findings that wouldn't 
interfere in the way that I am expressing concern about? Do you 
see any way that you could set it up without interfering in 
what has been such a success already? Anyone?
    Dr. Sarewitz. Can I step in here? I think it is important 
not to--it is certainly important to protect peer review from 
political interference and from bureaucratic excess but it is 
also important not to treat it as sacrosanct and as if it is 
always perfect. I think--I have never administered peer 
reviewed programs but I have been a peer reviewer, I have been 
on NSF peer review panels, so I am familiar--and I have been 
the subject of peer review, both positive and negative. So no 
one thinks it is perfect, and I think that is important to 
understand how to improve it especially in a time of fierce 
competition.
    Getting back to the Economist article that I opened my 
statement with, I think there is evidence in fact that the peer 
review process is not up to some of the tasks of dealing with 
the challenges of a highly competitive, highly kind of hype-
driven enterprise. So I think we need to take that seriously, 
and I think it is really important to have this discussion. As 
I have said, I am not particularly attracted to the specific 
provision of Section 104 but I do think the goal of being 
smarter about this is appropriate, and I think that NSF's 
response this summer in basically refusing to talk about what 
its process was did not serve it well because, in fact, they 
should be proud of the peer review process and should be 
willing to talk about how it works.
    Mr. Peters. As I understand it, the issues you have 
identified aren't ones that would be dealt with in this 
building as well as in the scientific community at large.
    Dr. Sarewitz. I am not so sure. I think----
    Mr. Peters. Publication of negative information or the way 
we don't make data available early in the process, those are 
all things that can be done without a determination of whether 
a specific scientific research project is in the national 
interest. My time is expired.
    Dr. Sarewitz. This is true, but Congress is often very good 
at providing signals that allow NSF to act.
    Mr. Peters. Different issue, but thank you very much for 
being here. I appreciate it.
    Mr. Collins. [Presiding] Thank you. The Chair now 
recognizes the Congresswoman from Wyoming, Mrs. Lummis, for 
five minutes.
    Mrs. Lummis. Thank you, Mr. Chairman, and I thank our 
witnesses for being in attendance.
    My questions are going to revolve around how to create a 
sustainable path to fund research, especially basic research. 
Now, we know that under the stimulus bill, there was an 
additional $3 billion that was provided to the NSF. Other 
research agencies saw a similar injection of funding. So these 
were one-time funds. Is it better to have steady funding at a 
sustainable level or do these one-time injections help 
stimulate an area of research that is really cutting edge? Dr. 
Buckius?
    Dr. Buckius. Thank you. This is a great question. There is 
no question that the stimulus funding energized a tremendous 
number of activities in this country, well received, and I 
think the research that was performed was just superb. I am 
going to go back to my principles though. Certainty will help 
our innovators and our young people get into basic research, 
and if we don't have some certainty, then I am really fearful 
that we are going to lose a whole generation of potential 
discoveries. So I would argue if you gave me a yes or no to go 
for certainty, but when you plunk down funding and if you have 
a national challenge and you put funding out there to solve 
that problem, you are going to get great ideas too. So I don't 
want to say that it is an either/or but I do really worry about 
the future of the country, the debt we are going to have if we 
don't have these folks being the true innovators. So certainty, 
I think, would take precedence.
    Mrs. Lummis. Does anyone else different? Dr. Killeen, I see 
you nodding.
    Dr. Killeen. I absolutely agree with that. I was at NSF 
when the stimulus package came, and I could cite many wonderful 
things that transpired from that. But if you are looking at a 
steady growth, I think that is the recipe for a real muscular 
program going forward. If success rates for proposals drop to 
single digits, you can imagine a young 35-year-old who has gone 
through all the hard classes and is ready to do things for the 
country in the national interesting, bringing all that to bear, 
and she has to write 10 proposals for a chance to get an award 
to liberate that energy, that is not really enough. So we need 
a way to manage the process so that the human capital can 
actually be brought to the table and these brilliant young 
investigators participate in the future of R&D, which I think 
is Dr. Buckius's point.
    Mrs. Lummis. Anyone else wish to weigh in on that 
particular issue? Okay, then.
    I am going to move to the notion of, how then when we have 
sort of a pop of money can we maximize its effect? Dr. Buckius, 
you mentioned earlier the notion of identifying those truly 
brilliant individuals and providing them with the resources 
they need to maximize their benefit to society. Can that be 
done through particular prizes? Is there a better way to 
identify and fund those absolutely magnificently brilliant 
scientists?
    Dr. Buckius. What I was getting at is grant challenges, so 
it might not even be a scientist, but your point is well taken. 
Prizes, I think, are an interesting approach, and I think it 
goes back to this crowdsourcing idea. I think we are going into 
kind of a new era where maybe some of these kinds of ideas 
could actually challenge our young people and we might see some 
very creative activities. I am back to this point where the 
genius is in the individuals, and we have got to get it out, 
and the way to get it ought might be some kind of a prize 
situation, or a moon shot, you know, another Sputnik, something 
that will actually challenge the young folks to actually be 
very, very creative and get into this business.
    Mrs. Lummis. Anyone else?
    If we had flat funding, which in this environment seems to 
be more realistic, and then had these little pops of additional 
funding, how could that be utilized most effectively, 
especially with regard to basic research? Anyone?
    Dr. Killeen. Well, what comes to my mind is, the hardest 
decisions at NSF are the declination decisions, and if you are 
leaving on a cutting-room floor so many wonderful ideas, a pop 
sounds great, any pop sounds great if you are representing a 
community that is vital, that is integrated, that is moving 
out, that has got great ideas. So I wouldn't dismiss anything 
that would provide us the scientific and technical and 
educational communities with forward momentum. That is what we 
need, forward momentum to grasp the challenges that we have 
talked about before of economic development, of new knowledge 
creation, of retaining our status as first in economic 
competitiveness.
    Mrs. Lummis. Thank you. My time is expired. Thank you all, 
gentlemen.
    Mr. Collins. Thank you. The Chair now recognizes the 
Congresswoman from Florida, Ms. Wilson, for five minutes.
    Ms. Wilson. Thank you, Mr. Chair.
    Over the past decade, inflation-adjusted wages for the 
bottom 70 percent of income earners have actually fallen. A key 
reason for this unacceptable decline is decline of 
manufacturing and other sectors that offer high-paying jobs and 
offer good wages. There is a responsible and sustainable way to 
address this crisis of jobs and wages. We must invest in 
innovation.
    While it is essential that we authorize America COMPETES, I 
have deep, deep concerns about the FIRST Act as it now stands. 
We need to maintain our focus on research to boost 
competitiveness but I fear that the new stipulations in this 
bill are focused more on regulating the efforts of scientists 
who do not need burdensome new Federal oversight. Can either of 
you speak to why the Innovation Services Initiative was 
eliminated under the Manufacturing Extension Partnership, MEP 
program, in the current draft? The initiative's purpose has 
been to help small and medium-sized manufacturers lower their 
energy consumption, greenhouse gas emissions and environmental 
waste. I have always believed that efficiency and cost saving 
were bipartisan values, and given the recent events in the 
Philippines and the most recent report of the Intergovernmental 
Panel on Climate Change, it strikes me as highly irresponsible 
to eliminate efforts to deal with the mounting problem of 
greenhouse gas emissions.
    Can you speak to why you believe the Innovation Services 
Initiative was eliminated?
    Dr. Buckius. I will be very honest: I did not understand 
that section of this particular draft discussion.
    Ms. Wilson. You do not understand what?
    Dr. Buckius. I didn't--so I think you are referring to 408, 
and I did not understand what was actually being withdrawn, so 
I really can't comment on that.
    Ms. Wilson. So is that a secret?
    Dr. Sarewitz. I think I can speak for us and say that 
overall we are sympathetic with the position that you are 
articulating but can't speak to the specifics of the point as 
made in the bill.
    Ms. Wilson. Oh, okay. So perhaps we need additional 
hearings on that particular initiative.
    Okay. I believe Mr. Kilmer did speak about America 
COMPETES, but in the America COMPETES Reauthorization Act of 
2010, this Committee authorized the Department of Commerce to 
partner with local communities to help spur the development of 
regional innovative clusters that leverage regional assets and 
resources around a particular niche or industry. This was an 
exciting provision with regard to my goal of spurring 
innovation that promotes job creation. As currently drafted, 
the FIRST Act does not reauthorize this program. This Committee 
has heard repeatedly that regional innovation is important for 
economic growth and job creation. Are you supportive of Federal 
efforts to spur regional clusters? If so, what should this 
Committee be doing to foster success in such clusters?
    Dr. Killeen. I think I am definitely in support of regional 
economic development clusters. I think we have seen in New 
York, for example, tremendous advances in nanotechnology which 
are leading to new jobs in advanced manufacturing that can 
transform communities and that kind of thinking is I think 
underpinning your questions and your concerns. We talked 
earlier in the hearing about an innovation title to this draft 
discussion bill, which I think might well add value to that 
along the lines that you are suggesting.
    Ms. Wilson. Thank you. Anyone else? No one else is 
supportive of the Federal efforts to foster clusters?
    Dr. Buckius. No, I think you heard we are supportive.
    Ms. Wilson. Good.
    Dr. Sarewitz. We had, before you were able to come to the 
hearing, a similar colloquy with Congresswoman Esty, and I 
think we all indicated that we think that this is where the 
action is to a considerable extent.
    Ms. Wilson. Okay. Thank you.
    Mr. Collins. I would like to now ask unanimous consent that 
the gentlelady from Oregon, Ms. Bonamici, be recognized for 
five minutes. Without objection, the Chair does recognize Ms. 
Bonamici for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, for 
holding this hearing, and thank you to the Ranking Member as 
well, and for allowing me to participate even though I am not 
on this Subcommittee. It is a very important issue.
    In the district I represent in Oregon, innovation is key to 
the economy, much of which depends on STEM and high-tech 
fields, and even though I missed the testimony--I was in the 
Education Committee--I assure you, I read the testimony and the 
word ``innovation'' is mentioned multiple times, not only in 
your testimony but also in the proposed legislation, and 
business leaders often describe innovation and creativity as a 
key to economic growth, global competitiveness, and like my 
colleagues, I hear from technology companies about the need for 
more STEM graduates and from constituents and educators who 
know that keeping students interested in STEM requires 
interdisciplinary education. But how do we assure that we have 
innovators? As this Committee considers legislation to 
reauthorize America COMPETES Act and in any STEM education 
discussions, I urge my colleagues to consider the potential 
that integrating the arts and design broadly defined into STEM 
education and the role that that can play in developing 
innovative minds.
    Research shows that educating and engaging both halves of 
the brain can help to foster innovation and do more to keep 
students engaged, and this potential is why our colleague, 
Representative Aaron Schock, and I have started a bipartisan 
STEM to STEAM Caucus where we promote the integration of arts 
and design into STEM learning, to engage students, to develop 
their creativity and critical-thinking skills, and to encourage 
them to pursue and stay in STEM careers.
    There was a recent issue of Economic Development Quarterly, 
and they talked about a study. Here is just a part of the 
abstract. Government, schools and other nonprofit organizations 
are engaged in critical budget discussions that may affect our 
economic development success. The assumption is that arts and 
crafts are dispensable extras. Research suggests, however, that 
disposing of arts and crafts may have negative consequences for 
the country's ability to produce innovative scientists and 
engineers who invent patentable products and found new 
companies. And that is one of the reasons why the U.S. Patent 
Office was at our kickoff of the caucus, very interested in 
this issue of assuring we have an innovative workforce.
    So I want to ask Dr. Buckius--I hope I said your name 
right--in your testimony, you talk about Federal research and 
how it enables the education and training of the next 
generation of innovators, and you say that our STEM students 
and all students need a broad-based education to make a 
difference in the world. So can you talk about that difference 
that a well-rounded, broad-based education makes in fostering 
innovation?
    Dr. Buckius. Thank you for this question. I could not have 
asked a better one. So Purdue, when you add up our engineering 
graduates and our technology graduates, we graduate the most of 
those in the country now. Our president at Purdue has very 
clearly made a statement that we believe in a broad-based 
education. We believe that if you are going to succeed in this 
world today, it cannot only be the STEM disciplines--we have 
two A's, by the way, arts and agriculture--and we clearly 
support this concept. Interdisciplinary activities which you 
referred to are also central. People need to understand that 
the problems and the issues that are facing this country and 
facing this world aren't going to come from one discipline very 
much longer, and so we need to generate graduates who 
understand the breadth of problems that we are all going to 
see. I am very supportive of all your comments.
    Ms. Bonamici. Thank you.
    And Dr. Killeen, you mentioned workforce development in 
America COMPETES and indicate you would support research into 
understanding how students learn STEM and how to best teach 
students in STEM fields. So is there room for improvement in 
the curriculum? And I would also like Mr. Brown to respond to 
that as well.
    Dr. Killeen. Yes, I think there is also room to improve the 
curriculum and to improve the cognitive gain that students get, 
and I love your A perspective on STEM. It is all-hands-on-deck 
kind of world we are living in. We need to engage all primary 
stakeholders in solutions that are meaningful for society. I 
think the biggest thing I would say, though, about STEM 
education is, I think we know now the role of experiential 
learning, that that really can transform engagement. It leads 
to persistence when students enter undergraduate settings. We 
have seen that firsthand as research demonstrates that. So it 
is not just in the classroom hearing the pedagogy or online 
with online but hands-on opportunities that allow for 
experiential learning. I think that is definitely part of the 
secret sauce.
    Ms. Bonamici. Thank you. Mr. Brown?
    Mr. Brown. This is a fascinating topic about how to 
integrate the arts into STEM education or STEAM education, and 
thank you for starting your caucus and trying to integrate 
those efforts with the larger STEM education conversation. I 
think we have a lot of issues with regard to how the term STEM 
is defined, and one of the things that we emphasize really 
strongly in our testimony, and I hope the Committee moves on 
this, is the notion of having a very stakeholder-based 
definition of the STEM subjects, and I would certainly think 
that the arts community would be a stakeholder in that 
conversation because when we talk to employers, they talk about 
creativity, design skills, things that fall within the arts 
community, and we certainly want to make sure they have a seat 
at the table when we talk about what, you know, the skills of 
the future really are.
    Ms. Bonamici. My time is expired. Thank you again, Mr. 
Chairman.
    Mr. Collins. Well, thank you. That will bring our hearing 
to a close. I want to thank all the witnesses for your 
testimony. It was very appropriate and timely.
    The record will remain open for two weeks for additional 
comments and written questions from Members.
    So with that, the witnesses are excused. The hearing is 
adjourned.
    [Whereupon, at 11:49 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              



                   Answers to Post-Hearing Questions
Responses by Dr. Richard Buckius



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record



  Submitted statement Lamar S. Smith, Chairman, Committee on Science, 
                         Space, and Technology

    Fundamental scientific research is critical to maintain American 
innovation and competitiveness. American researchers have developed new 
technologies that save lives, increase economic productivity, jump-
start new industries and improve the quality of life for all Americans.
    Our challenge today is to ensure America remains first in the 
global marketplace of ideas and products.
    Today we consider a discussion draft of the Frontiers in 
Innovation, Research, Science, and Technology Act or FIRST Act. The 
FIRST Act helps ensure that American researchers remain number one in 
the global marketplace for innovations that change our communities and 
advance our understanding of the world.
    The FIRST Act reauthorizes the National Science Foundation (NSF), 
the National Institute of Standards and Technology (NIST) and makes 
changes to improve coordination of STEM education programs. This 
discussion draft is, in part, a result of discussions with stakeholders 
in the R&D community.
    Federally-funded R&D is one of the best investments we can make in 
our nation's future. We can't have innovation without research and 
development. We must continue to support the fundamental R&D that 
creates jobs, encourages innovations and establishes scientific bridges 
to next generation technologies.
    The FIRST Act affirms our commitment to high-integrity science and 
prioritizes national R&D to ensure that American tax dollars are used 
effectively and efficiently in funding federal research. We must focus 
scientific funding on high priority research like developing 
technologies to help wounded warriors or creating a high-performance 
supercomputer to rival China's.
    The FIRST Act ensures that our nation stays on the cutting edge of 
new technology and strengthens technology transfer and 
commercialization of federally funded R&D. Not only does the FIRST Act 
help us remain globally competitive in the present, it ensures 
stakeholder input in STEM programs so that we remain the world leader 
in innovative research and technology for years to come. Our draft 
legislation also increases transparency within federally funded science 
and research. Americans want and deserve to know what their money is 
paying for.
    The FIRST Act requires federally funded research data to be made 
available to the public. It also requires that federally-funded 
researchers certify that what they publish is based on accurate 
representation of research results.
    The FIRST Act stresses quality over quantity for publication 
citations used in NSF grant applications. This provision will ensure 
that only quality science that is vital to American innovation and 
competitiveness receives funding.
    The bill also directs the NSF to assure that each grant application 
is relevant to the national interest. The bill requires that NSF staff 
provide clear justifications for why grants are awarded federal funds.
    Government employees and their program managers should be 
accountable to the American taxpayer for their funding decisions. They 
should explain why grants that receive taxpayer funding are important 
research that has the potential to benefit the national interest. It's 
not the government's money; it's the people's money.
    Enhanced transparency and accountability isn't a burden; it will 
ultimately make NSF's grant award process more effective.
    Eight of the 13 Nobel Prize winners in 2013 received support from 
NSF. We want to continue NSF's success of supporting high-quality 
research. Making more information available to the American public 
about awarded grants and requiring that they promote the national 
interest will help NSF to continue to produce first-rate scientific 
research.
    At a time of budget cuts, Congress has a responsibility to ensure 
that taxpayer dollars are spent wisely and are focused on national 
priorities. The FIRST Act will ensure that federally funded research is 
conducted in a transparent and responsible manner in order to ensure 
that America remains ``FIRST'' in all areas of science and research.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
